No. 19-333
IN THE

Supreme Court of the United States

d

ARLENE ’S FLOWERS , INC ., D /B /A ARLENE ’S FLOWERS
and BARRONELLE STUTZMAN ,

AND

GIFTS ,

Petitioners,

—v.—

STATE

OF

WASHINGTON ,

Respondent.

ARLENE ’S FLOWERS , INC ., D /B /A ARLENE ’S FLOWERS
and BARRONELLE STUTZMAN ,

AND

GIFTS ,

Petitioners,

—v.—
ROBERT INGERSOLL and CURT FREED ,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF WASHINGTON

BRIEF IN OPPOSITION FOR RESPONDENTS
ROBERT INGERSOLL AND CURT FREED
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005
Elizabeth O. Gill
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
39 Drumm Street
San Francisco, CA 94111

Ria Tabacco Mar
Counsel of Record
James D. Esseks
Louise Melling
Rose A. Saxe
Hilary Ledwell
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
rmar@aclu.org

(Counsel continued on inside cover)

Emily Chiang
Lisa Nowlin
AMERICAN CIVIL LIBERTIES
UNION OF WASHINGTON
FOUNDATION
901 Fifth Avenue, Suite 630
Seattle, WA 98164

Jake Ewart
Amit D. Ranade
HILLIS CLARK MARTIN
& PETERSON P.S.
999 Third Avenue, Suite 4600
Seattle, WA 98104

QUESTIONS PRESENTED
1.
Whether the Free Speech Clause gives a
business the right to discriminate in making sales to
the public in violation of a regulation of commercial
conduct that does not target speech?
2.
Whether the Free Exercise Clause gives
a business the right to discriminate in making sales
to the public in violation of a state law that is neutral
and generally applicable?

i

TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
TABLE OF AUTHORITIES ...................................... iv
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE.................................... 3
A.

Respondents Robert Ingersoll
and Curt Freed ........................................... 3

B.

Petitioners Arlene’s Flowers, Inc.
and Barronelle Stutzman ........................... 5

C.

The Washington Attorney General’s
investigation ............................................... 6

D.

Mr. Ingersoll and Mr. Freed’s
civil action ................................................... 7

E.

The trial court’s decision and orders .......... 8

F.

The Washington Supreme Court’s
2017 decision. .............................................. 9

G.

The Washington Supreme Court’s 2019
decision ...................................................... 10

REASONS FOR DENYING THE PETITION ......... 12
I.

THE COURTS BELOW DID NOT REQUIRE
THE FLOWER SHOP OR ITS OWNER TO
PARTICIPATE IN RELIGIOUS
CEREMONIES, AND THEREFORE THIS
CASE DOES NOT PRESENT ANY ISSUE
OF SUCH PARTICIPATION ........................... 12

ii

II.

THE WASHINGTON SUPREME COURT’S
DECISION DOES NOT CONFLICT WITH
FREE SPEECH DECISIONS OF THIS
COURT OR OTHER COURTS ......................... 16
A.

The decision below does not conflict
with the compelled speech cases because
generally applicable laws that regulate
commercial conduct regardless of what
it communicates do not violate the
First Amendment...................................... 16

B.

The decision below was correct ................ 21

III. THE FLOWER SHOP HAS IDENTIFIED
NO CONFLICT WITH RESPECT TO THE
WASHINGTON SUPREME COURT’S
FREE EXERCISE HOLDING, WHICH
SIMPLY APPLIED THIS COURT’S
LONGSTANDING JURISPRUDENCE ........... 25
A.

There is no evidence of religious
hostility from the Attorney General ........ 25

B.

Even if the Attorney General’s
enforcement were set aside, the outcome
of this case would be the same because
the private plaintiffs obtained judgment
in a separate lawsuit ................................ 27

IV. THIS CASE IS A POOR VEHICLE FOR
THE FLOWER SHOP’S HYBRID RIGHTS
CLAIM ............................................................... 30
V.

THERE ARE NO OTHER REASONS TO
GRANT REVIEW HERE .................................. 31

CONCLUSION.......................................................... 33

iii

TABLE OF AUTHORITIES
CASES
Anderson v. City of Hermosa Beach,
621 F.3d 1051 (9th Cir. 2010) ............................... 21
Associated Press v. United States,
326 U.S. 1 (1945) ................................................... 22
Board of Directors of Rotary International v. Rotary
Club of Duarte, 481 U.S. 537 (1987) ..................... 22
Brush & Nib Studio LC v. City of Phoenix,
448 P.3d 890 (Ariz. 2019) .......................... 19, 20, 32
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014) ............................................... 30
Employment Division v. Smith,
494 U.S. 872 (1990) ............................................... 15
Hishon v. King & Spalding,
467 U.S. 69 (1984) ................................................. 22
Hockley v. Hargitt,
510 P.2d 1123 (Wash. 1973).................................. 28
Hurley v. Irish-American Gay, Lesbian & Bisexual
Group of Boston, 515 U.S. 557 (1995) ....... 17, 18, 23
Janus v. American Federation of State, County, &
Municipal Employees, 138 S. Ct. 2448 (2018) ...... 20
Jimmy Swaggart Ministries v. Board of Equalization
of California, 493 U.S. 378 (1990) ........................ 26
Johnson v. Manhattan Railway Co.,
289 U.S. 479 (1933) ............................................... 28
Lee v. Weisman,
505 U.S. 577 (1992) ............................................... 14

iv

Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Commission, 138 S. Ct. 1719 (2018) .............. passim
Mastrovincenzo v. City of New York,
435 F.3d 78 (2d Cir. 2006)..................................... 21
National Institute of Family & Life Advocates v.
Becerra, 138 S. Ct. 2361 (2018)............................. 20
Newman v. Piggie Park Enterprises, Inc.,
390 U.S. 400 (1968) ............................................... 22
Roberts v. United States Jaycees,
468 U.S. 609 (1984) ............................................... 30
Telescope Media v. Lucero,
936 F.3d 740 (8th Cir. 2019) ..................... 18, 19, 32
United States v. O’Brien,
391 U.S. 367 (1968) ............................................... 21
STATUTES AND LEGISLATIVE MATERIALS
2006 Wash. Sess. Laws ............................................... 6
1957 Wash. Sess. Laws ............................................... 6
Wash. Rev. Code § 26.04.010(4) ............................... 15
Wash. Rev. Code § 49.60.030(3) .............................. 6-7
Wash. Rev. Code § 49.60.040(2) ............................... 15
RULES
Sup. Ct. R. 10 .............................................................. 2
OTHER AUTHORITIES
First Amended Complaint, Zawadski v. Brewer
Funeral Services, Inc., No. 55CI1-17-cv-00019-CM
(Cir. Ct. Pearl River Cty., Miss. Mar. 7, 2017),
Doc. No. 12 ............................................................. 24

v

Joint Stipulated Notice of Dismissal, Masterpiece
Cakeshop Inc. v. Elenis, No. 1:18-cv-02074-WYDSTV (D. Colo. Mar. 5, 2019), ECF No. 143 ........... 32
Karl B. Tegland, Washington Practice
(6th ed. 2013) ................................................... 28, 29
Transcript of Oral Argument, Masterpiece Cakeshop
v. Colorado Civil Rights Commission,
138 S. Ct. 1719 (2018) (No. 16-111) ............ 2, 23, 24

vi

INTRODUCTION
Two Terms ago, this Court reaffirmed in
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Commission, 138 S. Ct. 1719 (2018), that “religious
and philosophical objections . . . do not allow business
owners and other actors in the economy and in
society to deny protected persons equal access to
goods and services under a neutral and generally
applicable public accommodations law.” Id. at 1727.
At the same time, the Court held that official
hostility to religion in applying such laws violates the
Free Exercise Clause. The Washington Supreme
Court faithfully applied these principles to the facts
here. It searched the record for evidence of religious
hostility and found none. Its decision that the state’s
Law Against Discrimination had been neutrally
applied and, therefore, did not violate the business’s
free speech or free exercise rights does not conflict
with the decisions of any other court. Accordingly,
this case affords no basis for certiorari.
Petitioner Arlene’s Flowers, Inc. (the “Flower
Shop”) argues that the decision below warrants
review because it compels the Flower Shop’s owner to
participate in a religious ceremony, but the courts
below expressly disclaimed any such obligation on
the owner’s part. The injunctions at issue do not
require the Flower Shop or its owner to “go to a
sacred event” or “participate in celebrating” its
customers’ weddings. Pet. 21. Indeed, Respondents
Robert Ingersoll and Curt Freed, the gay couple who
sought to purchase flower arrangements in this case,
intended to pick up the flowers themselves. And even
where delivery is part of the service requested, mere
delivery to a wedding site does not amount to

1

participation in a religious ritual. Thus, the principal
premise of the Flower Shop’s petition is unfounded.
Nor has the Flower Shop identified any other
basis for reviewing its free speech or free exercise
claims. It has identified no conflict among the lower
courts and merely disagrees with the state court’s
application of settled precedent. But see Sup. Ct. R.
10. The Flower Shop contends that to require
“expressive” businesses that choose to open their
doors to the public to serve all customers equally
compels them to “speak” against their will; in effect,
it seeks a “floral art” exception from Washington’s
public accommodations law. But the Flower Shop is
unable to explain why a florist should get a First
Amendment exemption but not a makeup artist,
hairstylist, tailor, chef, or architect—all creative
professionals that counsel for the Flower Shop
argued, while counsel for Masterpiece Cakeshop,
should not receive such protection. Tr. of Oral Arg. at
12-18, Masterpiece Cakeshop v. Colo. Civil Rights
Comm’n, 138 S. Ct. 1719 (2018) (No. 16-111)
(“Masterpiece Tr.”). The notion of a First Amendment
right to discriminate has been rejected as often as it
has been raised, for the reason this Court explained
in Masterpiece Cakeshop: when the state regulates
commercial conduct pursuant to a generally
applicable regulation of conduct, irrespective of
expression, there is no First Amendment right to
exempt oneself from compliance.
Nor does the Flower Shop identify any conflict
with free exercise precedents. Unlike in Masterpiece
Cakeshop, this case involves no evidence of religious
hostility on the state’s part. The only evidence
proffered demonstrates consistent treatment by the
state. And in any event, the injunctions below rest
2

independently on a separate action brought by
private plaintiffs, Mr. Ingersoll and Mr. Freed, so
even if the Attorney General’s action were invalid,
the private parties’ identical injunction would stand.
Thus, this case is a poor vehicle to address any
alleged religious hostility.
This case does not present an urgent question
for the Flower Shop or for other businesses. As for
the Flower Shop, the Washington Attorney General’s
action does not threaten to “bankrupt” the store or its
owner. But see Pet. i. Wedding services make up just
3% of the Flower Shop’s total business, Pet. App. 8a,
150a, and the state obtained only $1,001 in civil
penalties and fees, Pet. App. 136a. That is hardly a
“ruinous judgment[].” Pet. 7. Nor does this case raise
a pressing issue for businesses more broadly. The
Flower Shop points to a handful of similar disputes
from across the country, but those instances do not
indicate a crisis. Rather, they reflect what one would
fully expect from case-by-case adjudication applying
the principles this Court set forth in Masterpiece
Cakeshop. There is no reason to disturb the rule,
reflected in over a century of public accommodations
laws, that all people, regardless of status, should be
able to receive equal service in American commercial
life.
STATEMENT OF THE CASE
A.

Respondents
Curt Freed.

Robert

Ingersoll

and

In the fall of 2012, Curt Freed proposed
marriage to Robert Ingersoll, his partner of eight
years. Pet. App. 5a. Mr. Ingersoll accepted, and the
two threw themselves into wedding planning. They
intended to marry on their ninth anniversary, in
3

September 2013, in front of more than 100 friends
and family members, and they reserved a wellknown venue near their home in eastern Washington
State that could accommodate such a large party.
Pet. App. 5a, 152a.
Mr. Ingersoll had purchased flowers many
times at the Flower Shop, and he considered it “our
florist.” Pet. App. 5a. In February 2013, a few months
after his engagement, he drove there to ask the
Flower Shop to “do the flowers” for his wedding to
Mr. Freed. Pet. App. 5a, 153a. An employee told him
he would have to speak with the store’s owner,
Barronelle Stutzman. Pet. App. 5a-6a, 153a.
Mr. Ingersoll returned the following day on his
lunch hour to speak with Ms. Stutzman. Pet. App.
6a.
He
envisioned
something
simple
and
understated, which he planned to pick up from the
Flower Shop. Pet. App. 154a; CP 1768.1 But before he
could even describe what the couple wanted, Ms.
Stutzman told him that the Flower Shop would not
provide any flower arrangements for his wedding
because he and Mr. Freed are a same-sex couple. Pet.
App. 6a, 153a-155a. It is undisputed that the Flower
Shop would have provided flowers for the wedding of
a different-sex couple. Pet. App. 150a.
Both Mr. Ingersoll and Mr. Freed were deeply
hurt by the Flower Shop’s refusal to sell them flowers
for their wedding. Pet. App. 6a-7a, 155a. The couple
cancelled their plans for a large wedding on their
anniversary in September, in part because they

“CP” refers to the Clerk’s Papers transmitted by the trial court
as the record on appeal to the Washington Supreme Court.

1

4

feared being turned away by other wedding
vendors. Pet. App. 7a. Instead, they settled for a
small event at their home, requiring virtually no
services from outside businesses. Pet. App. 7a. They
were married in July with just eleven people in
attendance. Pet. App. 7a, 155a. A friend took the
pictures. Pet. App. 155a. They bought a single
arrangement from another florist and boutonnieres
from a friend. Pet. App. 7a, 155a.
B.

Petitioners Arlene’s Flowers, Inc. and
Barronelle Stutzman.

The Flower Shop is a closely-held Washington
corporation that operates a retail store that sells
flowers and other goods to the public. Pet. App. 150a.
Weddings make up approximately 3% of the
corporation’s business. Pet. App. 8a, 150a. Customers
may seek a variety of goods and services for
weddings, including raw materials, premade flower
arrangements, and custom flower arrangements. Pet.
40. When it comes to deciding on the look of custom
arrangements, the customer, not the Flower Shop,
has “the last say.” App. 43a (deposition of Barronelle
Stutzman).2
The majority of the Flower Shop’s wedding
customers choose to pick up their flowers at the retail
store, but some request delivery. App. 25a.3 For
delivery orders, Ms. Stutzman does not deliver the

“App.” refers to the Appendix to Respondent State of
Washington’s Brief in Opposition.

2

From May 2010 to January 2013, the Flower Shop provided
flowers for 28 weddings in all. Of those, 21 couples chose to
pick up their flowers themselves, while 8 requested delivery.
CP 1341-43 (Resp. to Pl.’s First Set of Discovery Requests).

3

5

flowers herself. Flower Shop staff who deliver flowers
typically leave the site immediately after dropping
off the flowers and do not stay for the wedding
ceremony. App. 37a-38a.
The Flower Shop also sells specific services for
weddings, such as transporting flowers from the
ceremony location to the reception, for a fee of $45
per hour. App. 39a. In that case, staff who deliver the
flowers may wait on site, or they may leave and
return. App. 37a-38a. According to Ms. Stutzman,
delivery staff do not “participate in the wedding.”
App. 38a.
Petitioner Barronelle Stutzman is the owner of
the Flower Shop. Pet. App. 5a, 150a. Ms. Stutzman
testified at her deposition that providing flowers for
the wedding of a Muslim couple or an atheist couple
would not constitute her endorsement of Islam or
atheism. Pet. App. 8a, 43a. She refuses, however, to
allow the Flower Shop to provide flowers for the
wedding of Mr. Ingersoll and Mr. Freed (or any other
same-sex couple who plan to marry) because of her
religious beliefs opposing marriage for same-sex
couples. Pet. App. 5a.
C.

The Washington
investigation.

Attorney

General’s

Washington’s Law Against Discrimination,
first enacted in 1957, expressly prohibits public
accommodations from discriminating on the basis of
race, religion, and other characteristics, including
since 2006 sexual orientation. 2006 Wash. Sess.
Laws 12-13; 1957 Wash. Sess. Laws 107-09. A
violation of the Law Against Discrimination is by
statutory definition an unfair business practice that
violates the Consumer Protection Act. Wash. Rev.
6

Code § 49.60.030(3); see also Pet. App. 162a. Both
laws authorize the Attorney General or an aggrieved
private party to file suit to enforce their provisions.
When Washington’s Attorney General learned
that the Flower Shop had refused to provide flowers
to Mr. Ingersoll and Mr. Freed in violation of the
Law Against Discrimination, he sent the Flower
Shop a letter requesting an Assurance of
Discontinuance, essentially a voluntary agreement
not to violate state law in the future by refusing
service based on sexual orientation. Pet. App. 9a; see
Pet. App. 365a-370a. The letter noted that a
voluntary agreement would make any further
enforcement action unnecessary. Pet. App. 366a. The
Flower Shop refused to provide assurance that it
would not violate the law. Pet. App. 9a. Accordingly,
the Attorney General filed a civil action against the
Flower Shop pursuant to his authority to enforce the
state’s Consumer Protection Act. Pet. App. 350a356a.
D.

Mr. Ingersoll and Mr. Freed’s civil action.

Mr. Ingersoll and Mr. Freed also filed their
own independent civil action against the Flower
Shop alleging violations of both the Law Against
Discrimination and the Consumer Protection Act.
Pet. App. 357a-364a. The Flower Shop moved to
consolidate the private plaintiffs’ case with the
Attorney General’s action for all purposes. The trial
court granted the Flower Shop’s motion to
consolidate for pretrial discovery and dispositive
motions, Pet. App. 156a, but reserved decision on
whether the cases should be consolidated for trial,
CP 27.

7

E.

The trial court’s decision and orders.

On cross-motions for summary judgment, the
trial court granted Mr. Ingersoll and Mr. Freed’s
motion for partial summary judgment, granted the
Attorney General’s motion for partial summary
judgment, and denied the Flower Shop’s motion for
summary judgment. Pet. App. 226a.
The trial court held that the Flower Shop had
discriminated against Mr. Ingersoll and Mr. Freed
because of their sexual orientation, in violation of
state law. Pet. App. 143a-227a. It rejected the Flower
Shop’s First Amendment defenses, finding that the
Law Against Discrimination is a content-neutral,
generally applicable regulation of conduct, and does
not target speech or religious exercise. Pet. App.
197a-206a. The trial court also rejected the Flower
Shop’s claim of religiously biased selective
enforcement against the Attorney General. Pet. App.
217a-219a.
Because there were two independent cases, the
trial court entered independent but largely parallel
judgments against the Flower Shop. See Pet. App.
132a-137a (judgment in No. 13-2-00871-5, State v.
Arlene’s Flowers, Inc., in favor of Washington State);
Pet. App. 138a-142a (judgment in No. 13-2-009653-3,
Ingersoll v. Arlene’s Flowers, Inc., in favor of Mr.
Ingersoll and Mr. Freed).
In the Attorney General’s action, the court
entered judgment enjoining the Flower Shop from
discriminating based on sexual orientation in the
sale of any goods or services it chooses to offer the
general public for a fee. Pet. App. 135a-136a. The
trial court expressly stated that its injunction would
not require Ms. Stutzman or Flower Shop employees
8

to participate in wedding ceremonies. Pet. App. 197a
n.23. It also entered judgment for a civil penalty in
the amount of $1,000 and attorney’s fees and costs in
the amount of $1. Pet. App. 136a.
The trial court entered an identical injunction
in the private plaintiffs’ action. Pet. App. 140a. It
deferred judgment on private damages until
additional proof could be offered, Pet. App. 141a, but
noted that the private plaintiffs sought only $7.91 in
damages, reflecting the cost of mileage to visit
another florist. Pet. App. 155a. The private plaintiffs
do not seek damages for non-economic harms. Pet.
App. 172a n.9.
F.

The Washington Supreme Court’s 2017
decision.

The Flower Shop appealed. The Washington
Supreme Court accepted direct review of the trial
court decision, Pet. App. 83a, and affirmed in all
respects, Pet. App. 76a. Like the trial court, the
Washington Supreme Court concluded that
application of the Law Against Discrimination did
not trigger heightened constitutional review because
the regulation of commercial sales does not compel
speech and because the law constituted a generally
applicable, neutral prohibition on discriminatory
conduct by businesses that choose to open their
services to the public.
The court emphasized that, even if strict
scrutiny applied, the Law Against Discrimination’s
application in this case would survive such review.
Pet. App. 121a. The Flower Shop argued that no
harm had been done—and the government could
therefore have no compelling interest in regulating
its conduct—because Mr. Ingersoll and Mr. Freed
9

ultimately
obtained
flowers
from
other
businesses. Pet. App. 124a-125a. The Washington
Supreme Court “emphatically reject[ed]” that
argument. Pet. App. 125a. The court held that this
case is “‘no more about access to flowers than civil
rights cases in the 1960s were about access to
sandwiches,’”
and
that
the
Law
Against
Discrimination exists to “eradicat[e] barriers to the
equal treatment of all citizens in the commercial
marketplace.” Pet. App. 125a. Allowing the exception
requested by the Flower Shop, it held, would fatally
undermine that legislative purpose. Pet. App. 125a.
G.

The Washington Supreme Court’s 2019
decision.

After
this
Court
decided
Masterpiece
Cakeshop, it granted the Flower Shop’s 2017 petition
for certiorari, vacated the Washington Supreme
Court’s 2017 decision, and remanded the matter to
the Washington Supreme Court for further
consideration in light of Masterpiece Cakeshop. Pet.
App. 74a.
In Masterpiece Cakeshop, this Court set aside
a judgment of the Colorado Civil Rights Commission
requiring a bakery not to discriminate in its sales of
wedding cakes because the Court found evidence that
the state commission showed hostility to religion. 138
S. Ct. at 1724. The Court cited remarks by a
commissioner that disparaged religion, and it
expressed concern about the difference in treatment
of several other complaints. Id. at 1730. On remand,
the Washington Supreme Court “painstakingly
reviewed the record for any sign of intolerance” or
animus toward religion. Pet. App. 3a. Finding none,
the court affirmed its prior decision. Pet. App. 3a.

10

The court also considered the Flower Shop’s
motion to supplement the record concerning an
unrelated incident that occurred in 2017, four years
after the Flower Shop denied service to Mr. Ingersoll
and eight months after the Washington Supreme
Court had rendered its initial opinion in this case.
Pet. App. 22a. In that incident, a coffee shop refused
to serve a group of anti-abortion protestors. Pet. App.
22a. The Washington State Human Rights
Commission, which shares jurisdiction over
complaints under the Law Against Discrimination,
notified the owner of the coffee shop that refusing to
serve customers because of their religious beliefs
would violate the public accommodations law. App.
109a. The coffee shop’s owner publicly stated that he
would not deny service to patrons, including the
same group of protestors, based on their religious
beliefs, App. 109a, making further enforcement by
the state unnecessary. The Washington Supreme
Court concluded that this additional evidence failed
to meet the standard for supplementing the record or
taking judicial notice under Washington appellate
procedure and denied the Flower Shop’s motion. Pet.
App. 21a-23a.
As for the Flower Shop’s selective enforcement
claim, the court noted that the Flower Shop failed to
seek review on that issue and, therefore, abandoned
it on appeal. Pet. App. 23a-24a.
Finally, the Washington Supreme Court
specifically addressed and rejected the Flower Shop’s
“suggestion that the permanent injunction requires
[Ms. Stutzman] to ‘personally attend and participate
in same-sex weddings.’ As the court noted, ‘The
degree to which [Ms. Stutzman] voluntarily involves
herself in an event . . . is not before the Court’ and
11

therefore ‘would not be covered by an injunction.’”
Pet. App. 4a (internal citations omitted).
REASONS FOR DENYING THE PETITION
I.

THE
COURTS
BELOW
DID
NOT
REQUIRE THE FLOWER SHOP OR ITS
OWNER
TO
PARTICIPATE
IN
RELIGIOUS
CEREMONIES,
AND
THEREFORE THIS CASE DOES NOT
PRESENT
ANY
ISSUE
OF
SUCH
PARTICIPATION.
The Flower Shop’s principal argument for
granting certiorari rests on a demonstrably false
assertion. It claims that the judgments below require
its owner to “go to a sacred event” and “attend the
[wedding] ceremony,” thereby “participat[ing] in
celebrating” the marriage, and it argues that the
Court should grant review to determine whether a
business can be compelled to participate in a
wedding in this way. Pet. 21. But the courts below
expressly stated that the judgments do no such
thing. Pet. App. 4a, 197a n.25. This case thus
provides no occasion for considering whether the
Constitution would bar a state from applying its
anti-discrimination law to compel participation in a
religious ceremony.
As an initial matter, the service that Mr.
Ingersoll sought did not require anyone from the
Flower Shop to attend his wedding because Mr.
Ingersoll planned to pick up the flowers from the
Flower Shop himself. CP 1768. As a result, no Flower
Shop employee would have been required to deliver
or set up the flowers at the wedding site or to remain
for the wedding ceremony. (Ms. Stutzman refused

12

service without even asking whether Mr. Ingersoll
would pick up the flowers or wanted them delivered.)
Most of the Flower Shop’s wedding business
involves pick ups by customers rather than delivery.
App. 25a (deposition of Barronelle Stutzman). In no
circumstance do Flower Shop staff who deliver
flowers have to “participate in the wedding,” as Ms.
Stutzman conceded. App. 38a. And where customers
request delivery, that service is performed by other
staff, not Ms. Stutzman herself. App. 37a-38a.
Both the trial court and the Washington
Supreme Court made clear that the injunctions do
not require the Flower Shop or Ms. Stutzman to
attend, much less participate in, any wedding
ceremonies. The injunctions’ requirement to offer
service without discrimination applies only to
“service provided for a fee.” Pet. App. 187a n.19. The
core wedding services that the Flower Shop offers for
a fee include the arrangement of flowers that can be
picked up or delivered, and neither option involves
actual participation in the wedding ceremony. The
Washington Supreme Court specifically considered
whether the injunctions would require Ms. Stutzman
to “‘personally attend and participate in same-sex
weddings’” and concluded that they do not. Pet. App.
4a; see also Pet. App. 197a n.25 (trial court noting
that, to the extent Ms. Stutzman has voluntarily
participated in past wedding ceremonies, that is not
a service she provides for a fee and therefore not
covered by the injunction to halt discriminating in
providing goods and services to the public). Thus, the
factual predicate for the petition is false. This case
involves no participation in a religious ceremony,
compelled or otherwise.

13

The Flower Shop claims it must “go to” and
“attend” customer events, an apparent reference to
additional services it offers, such as transporting
flowers from the ceremony location to the reception—
services Mr. Ingersoll never sought. In any event,
transporting flowers from one venue to another is not
tantamount to “participating in sacred ceremonies.”
If the Flower Shop means to suggest that mere
delivery of flowers to a venue, or from one venue to
another, constitutes “participation in a religious
ceremony,” that definition would encompass any
vendor who must be physically present at the
wedding site to perform a service they sell. A rental
company could refuse to deliver and arrange the
tables and chairs, or a caterer could refuse to deliver
and set out the plates and cutlery. No party has
suggested that the First Amendment requires such a
blanket exemption from the Law Against
Discrimination. As this Court has noted, if rules
applicable to clergy, who certainly may choose which
weddings they perform, were extended to all the
businesses that service weddings, “then a long list of
persons who provide goods and services for
marriages and weddings might refuse to do so for gay
persons, thus resulting in a community-wide stigma
inconsistent with the history and dynamics of civil
rights laws that ensure equal access to goods,
services, and public accommodations.” Masterpiece
Cakeshop, 138 S. Ct. at 1727.
Because the injunctions below do not require
the Flower Shop to participate in its customers’
weddings or to perform any religious rites, they pose
no conflict with decisions of this Court precluding
compelled participation in religious exercise. Pet. 21
(citing Lee v. Weisman, 505 U.S. 577 (1992)

14

(compulsory school prayer violates free exercise)).
Moreover, Washington law recognizes the very
exemption for clergy that this Court discussed in
Masterpiece
Cakeshop.
Wash.
Rev.
Code
§ 26.04.010(4) (“No regularly licensed or ordained
minister or any priest, imam, rabbi, or similar official
of any religious organization is required to solemnize
or recognize any marriage.”); see also Pet. App. 203a.
The Law Against Discrimination does not apply to
clergy by its own terms. See Wash. Rev. Code
§ 49.60.040(2).
Finally, the lack of any participation in this
case (forced or otherwise) makes this case a poor
vehicle to decide whether Employment Division v.
Smith, 494 U.S. 872 (1990), is the proper framework
for evaluating compelled-participation claims. The
Flower Shop asserts that Smith should not be read to
mandate participation in a religious ceremony, Pet.
25, but as detailed above, this case involved no such
mandate. There is no basis to question how Smith
would apply to a case of compelled participation in a
religious ceremony, because the Flower Shop is
simply not required to attend its customers’
weddings, let alone participate in their religious
ceremonies.
Since the central predicate for the petition is
demonstrably false, this case provides no occasion to
address any issue of compelled participation in a
religious ceremony.

15

II.

THE WASHINGTON SUPREME COURT’S
DECISION DOES NOT CONFLICT WITH
FREE SPEECH DECISIONS OF THIS
COURT OR OTHER COURTS.

The Flower Shop contends that the decision
below conflicts with decisions of this Court and lower
courts regarding compelled speech. But there is no
conflict. This Court has made clear that where public
accommodations laws, like Washington’s Law
Against Discrimination, prohibit discriminatory
conduct regardless of whether it is communicative,
they do not impermissibly compel speech. Here,
application of the Law Against Discrimination was
entirely routine: it involved a retail store that sells
flower arrangements to its customers’ specifications.
The lower court decisions the Flower Shop cites as
conflicting are plainly distinguishable on their facts.
Accordingly, the Washington Supreme Court’s
decision comports fully with precedent of this Court
and other courts. Moreover, as the oral argument in
Masterpiece Cakeshop illustrated, there is no
principled basis on which to exempt businesses that
sell “expressive” goods and services from a generally
applicable ban on discrimination in sales.
A.

The decision below does not
conflict with the compelled speech
cases because generally applicable
laws that regulate commercial
conduct regardless of what it
communicates do not violate the
First Amendment.

The Washington Supreme Court’s decision
conflicts with no decisions of this Court, other courts
of appeals, or state supreme courts. Its conclusion

16

that the Law Against Discrimination may be lawfully
applied to the Flower Shop is fully consistent with
this Court’s compelled speech decisions.
When interpreting the Free Speech Clause,
“this Court has distinguished between regulations of
speech and regulations of conduct.” Masterpiece
Cakeshop, 138 S. Ct. at 1741 (Thomas, J.,
concurring). Public accommodations laws, such as
the Law Against Discrimination, generally “do not
‘target speech’ but instead prohibit the act of
discriminating against individuals in the provision of
publicly available goods, privileges, and services.” Id.
Accordingly,
it
is
well-settled
that
antidiscrimination laws do not violate the First
Amendment absent extraordinary circumstances. See
id.; Hurley v. Irish-Am. Gay, Lesbian & Bisexual Grp.
of Boston, 515 U.S. 557, 568 (1995). As this Court has
held for more than fifty years, and reaffirmed two
years ago in Masterpiece Cakeshop, “religious and
philosophical objections . . . do not allow business
owners and other actors in the economy and in
society to deny protected persons equal access to
goods and services under a neutral and generally
applicable public accommodations law.” 138 S. Ct. at
1727. The court below faithfully applied these
principles to find that the Flower Shop’s religious
objections do not allow it to “deny protected persons
equal access to goods and services.”
The Flower Shop’s suggestion that the decision
below conflicts with this Court’s decision in Hurley is
unfounded. Hurley involved a “peculiar application”
of a public accommodations law, not to a business
that serves the general public, but to a privately
organized non-profit parade, a classic form of
collective speech. 515 U.S. at 568. This Court held
17

that application impermissible because it directly
regulated nothing but expression—the content of the
private parade sponsor’s speech. Id. at 573. Here, by
contrast, the state has applied its Law Against
Discrimination not to the speech of a private
expressive association, but to the conduct of a retail
store—namely, its refusal to sell a product to
someone because of his sexual orientation. Pet. App.
29a n.7.
The Flower Shop’s attempt to manufacture a
conflict with a decision of the Eighth Circuit fares no
better, because that case is factually distinct. In
Telescope Media v. Lucero, 936 F.3d 740 (8th Cir.
2019), the Eighth Circuit confirmed that, as a
general matter, the Minnesota Human Rights Act
does not target speech and that public
accommodations laws targeting “activities” may
incidentally affect expressive conduct without
offending the First Amendment. Id. at 757. But it
concluded that a particular application of the Human
Rights Act to a company that sought to produce
wedding videos would impermissibly compel speech.
Id. at 753. That conclusion rested on three facts the
Eighth Circuit found critical. First, the video
company alleged that it would “retain ultimate
editorial judgment and control” over any videos it
might produce, making the films the company’s own
speech. Id. at 751. Second, the Human Rights Act
would be applied to the production of a film, which is
indisputably a protected form of speech. Id. at 749.
Third, the video company would be compelled to
convey a “‘positive’” message about its customers’
weddings. Id. at 753.
This case differs from Telescope Media in each
respect. First, the Flower Shop, unlike the video
18

company, agreed that “the customer,” not the Flower
Shop, “gets the last say as to what they want in
[their] flowers.” App. 43a (deposition of Barronelle
Stutzman). Thus, the Flower Shop, unlike the video
company, does not exercise “ultimate editorial
judgment and control” over its flowers or control any
message conveyed; any message is thus the
customer’s, not the Flower Shop’s. Cf. Telescope
Media, 936 F.3d at 751. Second, while arranging
flowers involves artistry, unlike films, the business of
selling flower arrangements has never been
considered “speech itself.” Cf. id. at 757. Third,
nothing in the injunctions challenged here requires
the Flower Shop to express a particular viewpoint;
indeed, the Flower Shop’s owner acknowledged that
providing flowers does not constitute an endorsement
of an event. Pet. App. 8a, 43a.
Nor does the Washington Supreme Court’s
decision conflict with the Arizona Supreme Court’s
opinion in Brush & Nib Studio LC v. City of Phoenix,
448 P.3d 890 (Ariz. 2019), which involved a company
that sought to produce custom wedding invitations.
The Arizona court reaffirmed that Phoenix’s Human
Relations Ordinance “is a facially content-neutral
law that generally targets discriminatory conduct,
not speech,” and is therefore valid as a general
matter. Id. at 914. It did not create a broad license to
violate the Human Relations Ordinance whenever
creative products or weddings are involved, nor
whenever a business owner has a religious or
philosophical objection to complying with a
nondiscrimination mandate. Id. at 895-96. Rather,
the court found a narrow, fact-specific free speech
violation limited to the “creation of custom wedding
invitations that are materially similar to those

19

contained in the record.” Id. at 895. In reaching that
conclusion, the Arizona Supreme Court likewise
focused on the complete artistic control that the
owners exercised over the final invitations, id. at
911, and expressly distinguished the Washington
Supreme Court’s decision in this case, id. at 917.
In the absence of a conflict with the actual
holding of the court below, the Flower Shop attempts
to manufacture a split of authority by conflating the
question in this case—whether the Law Against
Discrimination targets speech or conduct—with
different questions presented in distinct free speech
contexts.
The Flower Shop points to language from
decisions of this Court involving laws that targeted
speech on their face. Pet. 26 (citing Nat’l Inst. of
Family & Life Advocates v. Becerra, 138 S. Ct. 2361
(2018) (“NIFLA”), and Janus v. Am. Fed’n of State,
Cty., & Municipal Employees, 138 S. Ct. 2448
(2018)). NIFLA involved a state law mandating
notice requirements that expressly dictated the
content of what the petitioners were required to say.
138 S. Ct. at 2369-70 (law required petitioners to
“provide” or “disseminate” a “government-drafted
notice”). In Janus, the state law required the
petitioners “to subsidize the speech of other private
speakers.” 138 S. Ct. at 2464 (emphasis added).
Because both decisions involved laws that expressly
regulated speech itself or the support of speech itself,
they do not conflict with—or even address—the
conclusion
below
that
the
Law
Against
Discrimination targets conduct, not speech.
The Flower Shop cherry picks snippets from
circuit court opinions assessing the reasonableness of

20

“time, place, or manner” restrictions on certain forms
of expression. Pet. 28 (citing, e.g., Anderson v. City of
Hermosa Beach, 621 F.3d 1051 (9th Cir. 2010) (ban
on tattooing not a reasonable time, place, or manner
restriction); Mastrovincenzo v. City of New York, 435
F.3d 78 (2d Cir. 2006) (ban on unlicensed street
vending was a reasonable time, place, or manner
restriction)). Those decisions are simply inapplicable
to the Law Against Discrimination, which is not a
time, place, or manner restriction on speech, but a
regulation of discriminatory business practices: it
forbids the refusal to sell goods or services on the
basis of protected characteristics.
The Flower Shop also argues that there is
a conflict between the decision below and circuit
court decisions assessing whether conduct is
expressive. Pet. 28. The conduct that the Flower
Shop seeks to define as expressive is the process of
creating custom flower arrangements. But the Law
Against Discrimination does not regulate the process
or substance of arranging flowers; it prohibits only
the discriminatory refusal to provide goods and
services to same-sex couples on the same terms as
other customers. It regulates conduct regardless of
what it communicates, not because of what it
communicates. That is perfectly permissible, even if
flower arranging is expressive. See, e.g., United
States v. O’Brien, 391 U.S. 367 (1968).
B.

The decision below was correct.

The Washington Supreme Court’s decision was
correct. As this Court reaffirmed in Masterpiece
Cakeshop, there is no First Amendment right for any
business that chooses to open its doors to the public
to refuse to comply with a content-neutral anti-

21

discrimination law merely because the business deals
in goods and services that involve creativity or
expression. Bookstores are no more free to
discriminate in sales on the basis of race or sex than
are gas stations. The exception the Flower Shop
advances is contrary to precedent,4 would mire the
courts in impossible and unprincipled line-drawing,
and would leave the public uncertain about which
businesses are legally entitled to refuse them service
based on otherwise proscribed discriminatory
grounds.
The Flower Shop argues for an exception
“specific to participating in and creating custom
arrangements that celebrate same-sex weddings.”
Pet. 40. But as shown above, that exception does not
even encompass the facts of this case. The Flower
Shop refused to sell any flower arrangements to Mr.
Ingersoll for his wedding. Mr. Ingersoll did not ask
the Flower Shop to “participat[e]” in his wedding.
Indeed, he did not even request delivery; he planned
to pick up the flowers himself. CP 1768. And Ms.
Stutzman turned him away without even asking
whether he wanted delivery. Moreover, as noted in
Point I above, the courts below made clear that the
injunctions do not require participation.
The proposed exception also fails as a matter
of law. Nothing in this Court’s jurisprudence
supports drawing a distinction between a florist,

See, e.g., Bd. of Dirs. of Rotary Int’l v. Rotary Club of Duarte,
481 U.S. 537, 545-50 (1987); Hishon v. King & Spalding, 467
U.S. 69, 78 (1984); Newman v. Piggie Park Enters., Inc., 390
U.S. 400, 402 n.5 (1968); Associated Press v. United States, 326
U.S. 1, 7 (1945).
4

22

which, according to counsel for the Flower Shop, may
not be required to produce custom flower
arrangements for the wedding of a same-sex couple,
and a makeup artist, which, according to the same
counsel when representing Masterpiece Cakeshop,
may be required to create and personally apply a
customized wedding-day look to a bride. Masterpiece
Tr. 12-13. The Flower Shop also fails to explain why
the sale of a custom flower arrangement gets First
Amendment protection, while the sale of an identical
product made in advance would not. Pet. 40 (Flower
Shop freely “sells pre-made floral arrangements” “for
customers to use at . . . same-sex weddings”). Hurley
and this Court’s other public accommodations cases
demonstrate where the line is drawn: between
regulations that prohibit discriminatory conduct by
businesses open to the public and regulations or
applications that target the speech or association of
private, nonprofit expressive groups. This case falls
squarely on the former side.
In addition, nothing about the Flower Shop’s
proposed exception is limited to retail flower shops or
to weddings. The Flower Shop emphasizes the
artistic nature of flower arrangements, but countless
other businesses open to the public provide
customized goods and services that are artistic or
creative, including hairstylists, tailors, chefs, and
architects. Cf. Masterpiece Tr. 12-18 (counsel for
Masterpiece Cakeshop, also counsel here, arguing
that none of these activities would be sufficiently
“expressive” to be protected, but baking custom
wedding cakes would be). And many life events
beyond weddings are marked by religious
ceremonies, including funerals, bar and bat
mitzvahs, and confirmations. Could a florist refuse to

23

provide an arrangement for a gay person’s funeral if
it objected to commemorating LGBT lives? Cf. First
Am. Compl., Zawadski v. Brewer Funeral Servs., Inc.,
No. 55CI1-17-cv-00019-CM (Cir. Ct. Pearl River Cty.,
Miss. Mar. 7, 2017), Doc. No. 12 (funeral home
refused to transport body of deceased man after
learning that he was gay, communicating that they
did not “‘deal with their kind’”). Could a tailor shop
refuse to alter a suit for a child’s confirmation
because it opposed the Catholic Church’s teachings?
The Flower Shop’s proposal would put courts
in the untenable position of having to adjudicate, on
a case-by-case basis, the artistry of particular
businesses and lines of products. It offers no
standards that courts might apply to this unenviable
task—just as its counsel was unable to offer any such
standard during oral argument in Masterpiece
Cakeshop. Masterpiece Tr. 11-19. And it fails to
explain why, if the Flower Shop has a constitutional
right to refuse to provide flowers for Mr. Ingersoll
and Mr. Freed’s wedding, another florist would not
have a right to refuse to provide flower arrangements
for the wedding of an interracial, interfaith, or
Muslim couple.
If these distinctions are elusive for the courts,
they will be even more so for consumers. On the
Flower Shop’s view, notwithstanding the passage of
public accommodations laws expressly designed to
keep the commercial marketplace free of
discrimination, members of minority communities
would be left to guess which businesses they have a
right to be treated equally by, and which have a right
to turn them away for being Black, or Christian, or
gay.

24

III.

THE FLOWER SHOP HAS IDENTIFIED
NO CONFLICT WITH RESPECT TO THE
WASHINGTON
SUPREME
COURT’S
FREE EXERCISE HOLDING, WHICH
SIMPLY
APPLIED
THIS
COURT’S
LONGSTANDING JURISPRUDENCE.

The Flower Shop cites no conflict between the
Washington Supreme Court’s rejection of its free
exercise claim and any decision of this Court or any
other court. It argues that the court below erred in
reading Masterpiece Cakeshop to refer specifically to
religious animus in an adjudicatory body. Pet. 34-36.
But that question does not warrant certiorari for two
reasons: (A) the supplemental materials, which are
not a part of the record in this case, do not establish
religious animus on the Attorney General’s part; and
(B) even if the claim of hostility had merit, it would
not alter the injunction below, which rests
independently on the private plaintiffs’ case.
A.

There is no evidence of religious
hostility
from
the
Attorney
General.

The Flower Shop’s hostility theory is based
almost entirely on the state’s handling of an
unrelated incident, more than four years after the
incident in this case, involving a coffee shop that
refused to serve a group of anti-abortion
protestors. Far from showing hostility to either
business, however, the facts show evenhanded
treatment of both.
After the Attorney General learned that the
Flower Shop had refused to serve Mr. Ingersoll, the
Attorney General offered the Flower Shop the
opportunity to sign an Assurance of Discontinuance
25

stipulating that the Flower Shop would not repeat its
unlawful conduct. Pet. App. 155a-156a. The Flower
Shop refused to provide such assurance and instead
maintained that it could—and would—turn away
same-sex couples in the future. After efforts to
negotiate a resolution short of litigation failed, the
Attorney General initiated a civil action against the
Flower Shop. Pet. App. 156a. These facts establish no
“animosity” against Ms. Stutzman’s religious beliefs.
Pet. 36. Indeed, while the Flower Shop argued that
the Attorney General engaged in religiously biased
selective enforcement in the trial court, it abandoned
that argument on appeal to the Washington Supreme
Court. Pet. App. 23a-24a.5
The state’s treatment four years later of the
coffee shop adds nothing to the Flower Shop’s claim.
There, after learning that a coffee shop had refused
to serve a group of Christian customers, the
Washington Human Rights Commission, which
shares enforcement responsibility under the Law
Against Discrimination with the Attorney General,
notified the owner of the coffee shop that refusing to
serve customers because of their religious beliefs
would violate the Law Against Discrimination. App.
109a. But the coffee shop responded quite differently
than the Flower Shop. Where the Flower Shop
refused to comply with the law going forward, the

The Washington Supreme Court found that the Flower Shop
had abandoned its claim that the Attorney General had
engaged in biased enforcement by failing to raise it on appeal.
Pet. App. 23a-24a. That procedural bar is an adequate and
independent state ground for the decision to reject the Flower
Shop’s religious bias claim. See Jimmy Swaggart Ministries v.
Bd. of Equalization of Cal., 493 U.S. 378, 398-99 (1990).

5

26

coffee shop stated that it would not repeat its
conduct, App. 109a, making further enforcement by
the executive unnecessary. That the Attorney
General filed suit in the Flower Shop’s case but not
the coffee shop’s is fully supported by the businesses’
respective responses: the coffee shop agreed to
comply with the law, while the Flower Shop, given
that same opportunity, declined.6
B.

Even if the Attorney General’s
enforcement were set aside, the
outcome of this case would be the
same because the private plaintiffs
obtained judgment in a separate
lawsuit.

Even if the Attorney General’s actions were
tainted by religious hostility, this case would be a
poor vehicle to address that question because, as the
court below recognized, Pet. App. 25a, the state court
entered a separate but identical injunction in private
litigation in which the Attorney General was not a
party or counsel.
Washington’s statutory scheme authorizes
separate and independent enforcement of state law
by private plaintiffs who are injured and who seek to

The Flower Shop’s truncated argument that the Washington
Supreme Court itself departed from religious neutrality simply
by concluding that the standard set forth in Masterpiece
Cakeshop was not met in this case, Pet. 38, is meritless. If that
theory were accepted, any court that declined to find a free
exercise violation in a particular case would be accused of
religious hostility. Equally unfounded is the Flower Shop’s
suggestion that anti-religion animus is shown simply by the
state court’s conclusion that the Flower Shop violated state law
when it refused to serve a gay couple.

6

27

enjoin future violations of the law. Pet. App. 173a.
That law authorizes private plaintiffs to seek
injunctive relief not only as to themselves, but also as
to others to give full effect to the state’s public policy.
Pet. App. 173a (citing Hockley v. Hargitt, 510 P.2d
1123, 1132 (Wash. 1973)). Consequently, the private
plaintiffs, Mr. Ingersoll and Mr. Freed, were entitled
to file their own, separate action and to obtain
injunctive relief regardless of whether the Attorney
General filed. Pet. App. 162a. Thus, the injunction in
the private plaintiffs’ lawsuit would stand even if the
Flower Shop could show that the Attorney General
acted out of religious hostility.
The Washington courts consolidated the
private plaintiffs’ action with the Attorney General’s
action for discovery and held joint hearings on
motions and appeals to expedite the cases and
conserve judicial resources. Pet. App. 147a n.3, 156a.
But the private plaintiffs’ action remained separate
at all stages of this litigation. Actions that are
consolidated pursuant to Washington civil procedure
“retain their separate identity.” 4 Karl B. Tegland,
Wash. Practice § 42 at 89 (6th ed. 2013); see also
Johnson v. Manhattan Ry. Co., 289 U.S. 479 (1933)
(“Consolidation is permitted as a matter of
convenience and economy in administration, but does
not merge the suits into a single cause, or change the
rights of the parties, or make those who are parties
in one suit parties in another.”). That distinguishes
this case from Masterpiece Cakeshop, in which the
state civil rights commission brought the only action
against the bakery, and the gay couple were merely

28

intervenors in the Commission’s action.7 Here, the
private plaintiffs filed a separate complaint, retained
a separate docket number and caption, filed their
own briefing, and made separate oral arguments,
“retain[ing] their separate identity” throughout.
Wash. Practice § 42 at 89.
The trial court entered separate judgments in
the state’s case and in the private plaintiffs’ case.
Pet. App. 132a-137a (judgment in No. 13-2-00871-5,
State v. Arlene’s Flowers, Inc., in favor of Washington
State); Pet. App. 138a-142a (judgment in No. 13-2009653-3, Ingersoll v. Arlene’s Flowers, Inc., in favor
of Mr. Ingersoll and Mr. Freed). Consequently, even
if the judgment in the Attorney General’s action were
set aside because of religious animus, the judgment
in the private plaintiffs’ action would be unaltered.
That judgment contains an injunction identical to the
one entered in the Attorney General’s case. Compare
Pet. App. 135a-136a with Pet. App. 140a. This Court
should not grant discretionary review in a case where
granting Petitioners’ requested relief would not alter
the Flower Shop’s ongoing obligations under state
law.

In Masterpiece Cakeshop, the couple opted to intervene in the
state’s enforcement action in lieu of initiating their own lawsuit.
Though the couple in Masterpiece Cakeshop participated in
briefing and argument, they did not seek or obtain any
judgment apart from the state’s.
7

29

IV.

THIS CASE IS A POOR VEHICLE FOR
THE FLOWER SHOP’S HYBRID RIGHTS
CLAIM.

There is no basis for taking up the Flower
Shop’s “hybrid rights” theory—namely, that an
unsuccessful free exercise claim paired with an
unsuccessful free speech claim should receive
heightened review. This Court has never held that
two unsuccessful claims can be cobbled together
under the rubric of “hybrid rights” to trigger
heightened scrutiny. The Flower Shop offers no
reason why it should do so here. In any event, this
case is a poor vehicle for even asking that question
because, even if heightened scrutiny were triggered
here, the Law Against Discrimination satisfies strict
scrutiny, as it furthers a compelling interest in
eradicating discrimination in the marketplace and
prohibiting discrimination in retail sales is narrowly
tailored to achieve that goal. See, e.g., Burwell v.
Hobby Lobby Stores, Inc., 573 U.S. 682, 733 (2014)
(laws prohibiting race discrimination in employment
are “precisely tailored” to further compelling
government interest in “equal opportunity to
participate in the workforce without regard to race”);
Roberts v. U.S. Jaycees, 468 U.S. 609, 625-27 (1984)
(state’s public accommodations law was least
restrictive means to further compelling government
interest in “[a]ssuring women equal access to goods,
privileges, and advantages”). Because the availability
of the hybrid-rights theory for triggering strict
scrutiny would not change the result here, this Court
should not grant the petition to decide that question.

30

V.

THERE ARE NO OTHER REASONS TO
GRANT REVIEW HERE.

The Flower Shop attempts to portray a crisis
warranting this Court’s intervention. But, far from
demonstrating a question of national importance, the
handful of examples to which it points shows the
opposite.
As for the Flower Shop itself, its claim of
looming bankruptcy at the hands of the state rings
hollow. The modest penalty of $1,000 and nominal
fees of $1 obtained by the Attorney General pose no
great threat. Moreover, wedding-related services
make up just 3% of the Flower Shop’s business
overall. Pet. App. 8a, 150a. Indeed, the Flower Shop
has continued its operations for years without
providing any wedding services at all. Pet. App. 8a9a.
As for other businesses in Washington, it is
telling that no similar dispute has arisen in more
than a decade since the Law Against Discrimination
was updated to expressly prohibit discrimination on
the basis of sexual orientation in 2006. And the
Flower Shop can identify only a handful of examples
from across the country during the 37 years that
lesbian, gay, and bisexual people have had express
protections from discrimination under one or more
state laws.
For those businesses that object to marriage
for same-sex couples, Masterpiece Cakeshop has
provided sufficient guidance for the lower courts to
make case-by-case adjudications: as a general
matter, religious and philosophical objections do not
provide an exemption from generally applicable
nondiscrimination laws, but if the law’s enforcement
31

is tainted by specific anti-religious animus, the Free
Exercise Clause is violated.
Applying Masterpiece Cakeshop, some courts,
such as the one below, have found no evidence of
anti-religious targeting. Pet. App. 3a. In other cases,
courts have ruled in favor of businesses whose
products involved speech over which the vendor
retained editorial judgment, raising distinct free
speech concerns. See, e.g., Telescope Media, 936 F.3d
740; Brush & Nib, 448 P.3d 890. In still other cases,
including a second case between Masterpiece
Cakeshop itself and the Colorado Civil Rights
Commission, the parties have reached a voluntary
resolution of the dispute. Joint Stipulated Notice of
Dismissal, Masterpiece Cakeshop Inc. v. Elenis, No.
1:18-cv-02074-WYD-STV (D. Colo. Mar. 5, 2019),
ECF No. 143.
This “landscape” hardly amounts to a crisis.
As these examples show, the lower courts are
perfectly
capable of
ensuring
that
public
accommodations laws are neutrally applied and that
no one is targeted because of anti-religious bias. That
is exactly what the Washington Supreme Court did
here.

32

CONCLUSION
The petition for certiorari should be denied.
Respectfully submitted,
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005
Elizabeth O. Gill
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
39 Drumm Street
San Francisco, CA 94111
Emily Chiang
Lisa Nowlin
AMERICAN CIVIL LIBERTIES
UNION OF WASHINGTON
FOUNDATION
901 Fifth Avenue,
Suite 630
Seattle, WA 98164

Ria Tabacco Mar
Counsel of Record
James D. Esseks
Louise Melling
Rose A. Saxe
Hilary Ledwell
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
rmar@aclu.org
Jake Ewart
Amit D. Ranade
HILLIS CLARK MARTIN
& PETERSON P.S.
999 Third Avenue,
Suite 4600
Seattle, WA 98104

December 6, 2019

33

